                                              OFFICE OF JOB CORPS



Office of Inspector General—Office of Audit




                                              PERFORMANCE AUDIT OF DYNAMIC
                                              EDUCATIONAL SYSTEMS, INCORPORATED JOB
                                              CORPS CENTER OPERATOR




                                                                           Date: June 02, 2009
                                                                Report Number: 26-09-002-01-370
U.S. Department of Labor                                 June 2009
Office of Inspector General
Office of Audit                                          WHAT OIG FOUND

                                                         DESI did not ensure compliance with Job Corps
BRIEFLY…                                                 requirements for reporting performance in one of four
                                                         areas tested – student attendance and accountability.
                                                         Specifically, leave days taken by Montgomery students
Highlights of Report Number 26-09-002-01-370,
                                                         were not consistently supported by the required leave
Performance Audit of Dynamic Educational Systems,
                                                         forms and appropriate center staff approvals. The
Incorporated Job Corps Center Operator to the National
                                                         center also did not consistently comply with the
Director, Office of Job Corps.
                                                         requirement to attempt to contact students or their
                                                         parents (for minor students) when the students were
WHY READ THE REPORT                                      missing from the center. Furthermore, the center did not
                                                         accurately report student participation in the center’s
This report discusses weaknesses in controls over        off-site Work-Based Learning (WBL) program, and did
performance reporting and financial management at the    not provide adequate assurance that the participating
Montgomery Job Corps Center (Montgomery), located        students were in attendance at their work sites or
in Montgomery Alabama, which is operated by Dynamic      received the intended WBL program benefits.
Educational Systems, Incorporated (DESI).
                                                         Additionally, DESI had control weaknesses in two areas
WHY OIG CONDUCTED THE AUDIT                              relating to financial management and reporting. DESI
                                                         did not consistently verify timesheets were reliable.
Our audit objectives were to answer the following        Timesheets submitted by center staff had supervisor
questions:                                               signature dates prior to staff signature dates or were not
                                                         dated by employees. Furthermore, the controls
    1. Did DESI ensure compliance with Job Corps         established to ensure appropriate government vehicle
       requirements for reporting performance?           use were not effective. Required trip request and
                                                         approval forms, trip reports, and daily vehicle inspection
    2. Did DESI ensure compliance with Job Corps         sheets were not completed.
       requirements for managing and reporting
       financial activity?                               These weaknesses occurred because of inadequate
                                                         center procedures, staff not following procedures, and
    3. Did DESI ensure compliance with Job Corps         the lack of training and supervision over student leave,
       requirements for managing center safety           contacting missing students, WBL, timesheets, and the
       programs?                                         use of government vehicles. The control weaknesses
                                                         lessen program accountability in these areas and could
In addition, in response to two hotline complaints, we   impact operational decisions made by DESI and Job
added an objective:                                      Corps.

    4. Were the hotline complaints alleging improper     Nothing came to our attention indicating that DESI did
       practices relating to DESI’s construction         not ensure compliance with Job Corps requirements for
       contractor procurement, accounting, high          managing center safety programs. We also concluded
       school diploma attainment, personnel hiring and   that the hotline complaint allegations did not have merit.
       termination, clothing distribution, and travel
       reimbursement valid?                              WHAT OIG RECOMMENDED
Our audit work was conducted at DESI headquarters in     We made four recommendations to the National
Phoenix, Arizona and at the Montgomery Job Corps         Director, Office of Job Corps. In summary, we
Center in Montgomery, Alabama.                           recommended that Job Corps direct DESI to develop
                                                         and implement corporate and center oversight,
READ THE FULL REPORT                                     procedures, and training to ensure its centers comply
                                                         with Job Corps requirements in each of the areas we
To view the report, including the scope, methodology,    identified control weaknesses (student leave, contacting
and full agency response, go to:                         missing student or their parents, Work-Based Learning,
                                                         timesheet verification, and use of government vehicles).
http://www.oig.dol.gov/public/reports/oa/2009/26-09-     The National Director, Office of Job Corps concurred
002-01-370                                               with the report’s findings and recommendations for
                                                         improvement.
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                       Performance Audit of DESI
                                     Report No. 26-09-002-01-370
U. S. Department of Labor – Office of Inspector General




                              Performance Audit of DESI
                            Report No. 26-09-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                       Performance Audit of DESI
                                     Report No. 26-09-002-01-370
                                                     U. S. Department of Labor – Office of Inspector General



Table of Contents
Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective 1 – Did DESI ensure compliance with Job Corps requirements for
reporting performance?................................................................................................ 4

         Finding 1 –         For three of four performance reporting areas reviewed,
                             nothing came to our attention indicating that DESI did not
                             ensure center compliance. However, DESI did not
                             consistently comply with Job Corps reporting requirements
                             for student attendance and accountability....................................... 4

Objective 2 – Did DESI ensure compliance with Job Corps requirements for
managing and reporting financial activity? ................................................................ 8

         Finding 2 –         DESI did not ensure compliance with Job Corps
                             requirements for verifying timesheets and use of government
                             vehicles. .......................................................................................... 8

Objective 3 – Did DESI ensure compliance with Job Corps requirements for
managing center safety programs?........................................................................... 11

          Nothing came to our attention to indicate that DESI did not effectively
          ensure compliance with Job Corps requirements for managing center
          safety programs. ................................................................................................ 11

Objective 4 – Were the hotline complaints alleging improper practices relating to
DESI’s construction contractor procurement, accounting, high school diploma
attainment, personnel hiring and termination, clothing distribution, and travel
reimbursement valid? ................................................................................................. 11

         The allegations contained in the hotline complaints did not have merit. ............. 11

Recommendations ...................................................................................................... 12

Appendices
      Appendix A Background......................................................................................... 15
      Appendix B Objectives, Scope, Methodology, and Criteria .................................... 17
      Appendix C Acronyms and Abbreviations .............................................................. 23
      Appendix D Job Corps Response .......................................................................... 25
      Appendix E DESI Response .................................................................................. 31
      Appendix F Acknowledgements ............................................................................. 35



                                                                                               Performance Audit of DESI
                                                                                             Report No. 26-09-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                       Performance Audit of DESI
                                     Report No. 26-09-002-01-370
                                    U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




June 02, 2009

                        Assistant Inspector General’s Report


Esther R. Johnson
National Director
Office of Job Corps
US Department of Labor
200 Constitution Avenue, N.W
Washington, D.C. 20210


The Office of Inspector General (OIG) conducted a performance audit of Dynamic
Educational Systems, Incorporated (DESI). DESI is under contract with Job Corps to
operate three Job Corps centers for the Department of Labor. We had initially planned
to pursue three audit objectives during our audit. However, in response to two hotline
complaints, we added a fourth objective to determine the validity of allegations that
DESI officials engaged in improper practices.

OBJECTIVES

The audit objectives were to answer the following questions:

   1. Did DESI ensure compliance with Job Corps requirements for reporting
      performance?

   2. Did DESI ensure compliance with Job Corps requirements for managing and
      reporting financial activity?

   3. Did DESI ensure compliance with Job Corps requirements for managing center
      safety programs?

   4. Were the hotline complaints alleging improper practices in DESI’s construction
      contractor procurement, accounting, high school diploma attainment, personnel
      hiring and termination, clothing distribution, and travel reimbursement valid?

This report covers our audit work conducted at DESI headquarters in Phoenix, Arizona
and the Montgomery Job Corps Center (Montgomery) in Montgomery, Alabama.
Additional background information is contained in Appendix A.

We conducted this performance audit in accordance with government auditing
standards. Those standards require that we plan and perform the audit to obtain

                                                                        Performance Audit of DESI
                                            1                         Report No. 26-09-002-01-370
                                               U. S. Department of Labor – Office of Inspector General


sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our audit scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

We reviewed four performance reporting areas during our audit. Of the four areas
reviewed, nothing came to our attention indicating DESI did not ensure center
compliance with Job Corps requirements for three performance reporting areas:
(1) Career Technical Training Completion; (2) General Educational Development
(GED)/ high school diploma attainment; and (3) Student On-Board Strength, a measure
of a center’s ability to operate at full capacity.

However, for the fourth area reviewed – student attendance and accountability – DESI
did not ensure Montgomery’s compliance with Job Corps requirements. Leave days
taken by Montgomery students during Program Year (PY) 2007 were not consistently
supported with the required leave forms or appropriate center staff approvals. 1 Also, the
center did not consistently comply with Job Corps requirements to attempt to contact
students or their parents (for minor students) when the students were missing from the
center. Furthermore, the center did not accurately report student participation in the
center’s off-site Work-Based Learning (WBL) program and did not provide adequate
assurance that the participating students were in attendance at their work sites or
received the intended WBL program benefits.

Additionally, DESI did not ensure compliance with Job Corps requirements for
managing and reporting financial activity. DESI Corporate and Montgomery staff did not
consistently verify timesheets were reliable. Timesheets submitted by center staff had
supervisor signature dates prior to staff signature dates or were not dated by
employees. Furthermore, the controls established to ensure appropriate vehicle use
were not effective. Required trip request and approval forms, trip reports, and daily
vehicle inspection sheets were not completed.

These conditions occurred because DESI’s controls over student leave, missing student
contacts, WBL, timesheets, and the use of government vehicles need improvement. We
attributed weaknesses to inadequate center procedures, staff not following established
center procedures, and lack of training and supervision. Also, the DESI corporate center
assessment at Montgomery did not consistently identify or address the deficient areas
discussed in this report. These control weaknesses lessen program accountability in
these areas and could impact operational decisions made by DESI and Job Corps.




1
 Job Corps’ Program Year 2007 began July 1, 2007, and ended June 30, 2008. Prior to April 5, 2008, leave approval
documentation was required to be maintained in the student’s personnel files. Subsequent to April 5, 2008, leave
approval documentation was required to be maintained in Job Corps’ automated Center Information System (CIS). All
the leave exceptions we identified occurred prior to April 5, 2008.

                                                                                   Performance Audit of DESI
                                                       2                         Report No. 26-09-002-01-370
                                      U. S. Department of Labor – Office of Inspector General


Finally, nothing came to our attention indicating that DESI’s corporate office and
Montgomery did not ensure compliance with Job Corps requirements for managing
center safety programs. In regard to the hotline complaints, we concluded that the six
allegations did not have merit.

We made four recommendations to the National Director, Office of Job Corps. In
summary, we recommended that Job Corps direct DESI to develop and implement
corporate and center oversight, procedures, and training to ensure its centers comply
with Job Corps requirements in the following areas:

   •   Student Leave,
   •   Contacting Missing Students or their Parents,
   •   Work-Based Learning,
   •   Timesheet Verification, and
   •   Use of Government Vehicles.

In response to our draft report, the National Director, Office of Job Corps, concurred
with the audit results and each of our four recommendations.

DESI fully concurred with the audit results relating to contacting missing students or
their parents, work-based learning, and use of government vehicles. DESI concurred
with the student leave exceptions where the finding was a missing leave request form,
but did not agree that leave was not properly approved. We continue to assert that all
leave tested was not properly approved because the center did not consistently obtain
required written verification from a third-party supporting that the reason for the leave
provided by the student was valid.

Additionally, DESI agreed with our specific exceptions for timesheet verifications, but
disagreed with our conclusion that Montgomery did not adequately ensure that the work
hours inputted by staff and reported by the center were appropriate. DESI stated that
there was adequate assurance that the time reported was appropriate because the
number of hours recorded on the timesheets after the supervisor signed was not
significant. We disagreed and questioned the reliability of the entire timesheets and the
effectiveness of the controls based on the non-compliance and inadequate supervisory
reviews.

Job Corps’ and DESI’s written responses to our draft report are provided in their entirety
as Appendices D and E, respectively.




                                                                    Performance Audit of DESI
                                             3                    Report No. 26-09-002-01-370
                                    U. S. Department of Labor – Office of Inspector General


Objective 1 – Did DESI ensure compliance with Job Corps requirements for
              reporting performance?

Finding 1 –    For three of four performance reporting areas reviewed, nothing
               came to our attention indicating that DESI did not ensure center
               compliance. However, DESI did not consistently comply with Job
               Corps reporting requirements for student attendance and
               accountability.

Nothing came to our attention indicating that DESI did not ensure center compliance
with Job Corps requirements for reporting performance for (1) Career Technical
Training Completions; (2) General Educational Development (GED)/ high school
diploma attainment; and (3) Student On-Board Strength, which is a measure of a
center’s ability to operate at full capacity.

However, for the fourth performance reporting area reviewed, Montgomery did not
consistently comply with Job Corps requirements for student attendance and
accountability. Leave taken by Montgomery students was not supported with the
required leave forms or appropriate center staff approvals. Also, Montgomery staff did
not consistently attempt to contact students or their parents (for minor students) when
the students were missing, absent without leave (AWOL). Furthermore, Montgomery did
not accurately report student participation in the center’s off-site WBL program and did
not provide adequate assurance that the students were in attendance at their work sites
or received the intended WBL program benefits.

These conditions occurred because DESI’s controls over these areas need
improvement. The control weaknesses included inadequate center procedures, staff not
following established center procedures, and lack of training and supervision.
Additionally, the DESI corporate center assessment at Montgomery did not consistently
identify or address the deficiencies we identified in these areas.

Student Leave Was Not Properly Documented or Approved

Montgomery did not provide adequate assurance that student leave was documented
and approved as required by Job Corps. The leave used was not consistently supported
with the required leave forms or appropriate center staff approvals. Prior to April 5,
2008, Job Corps required centers to document student leave requests and
management approvals on leave forms maintained in the students’ personnel files
(Policy and Requirements Handbook (PRH) Chapter 6, Section 6.1, R.2. d & h, dated
December 27, 2007). Subsequent to April 5, 2008, leave approval documentation was
required to be maintained in Job Corps’ CIS.

We reviewed a random sample of 20 students out of the 298 students with reported
leave during PY 2007. The 20 students in our sample had 206 total reported leave days
and the 298 students with reported leave during PY 2007 had 1,930 total reported leave
days. Of the 20 student files reviewed, the reported leave for 10 students, totaling 55


                                                                  Performance Audit of DESI
                                           4                    Report No. 26-09-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


leave days, was not supported with the required leave forms or were approved without
required third-party verifications (e.g., funeral director or doctor). All the leave
exceptions we identified occurred prior to April 5, 2008. Table 1 shows the different
types of leave and the percentages that were not properly supported for each type of
leave.

                                   Table 1
  Twenty-seven Percent of Leave Days Tested Were Not Supported As Required

                            Leave Days                                    Percentage
Leave Type                                      Leave Days Tested
                           Not Supported                                Not Supported
Paid Administrative             18                     45                 40% (18/45)
Unpaid Administrative            37                    90                 41% (37/90)
Paid Personal                     0                    49                  0% (0/49)
Unpaid Personal                   0                    18                  0% (0/18)
Bereavement                       0                     4                  0% (0/4)
Totals                          55                    206                27% (55/206)

Montgomery’s non-compliance in this area occurred because of weaknesses in center
and corporate controls as follows:

   •   The center operating procedures (COP) for student leave, prior to April 5, 2008,
       were not consistent with Job Corps requirements to support student leave with
       the required leave forms and appropriate center staff approvals. The COP were
       not specific as to how leave requests and approvals were to be processed,
       documented, and maintained.

   •   Center management did not provide sufficient supervision to ensure student
       leave requests and management approvals for paid and unpaid administrative
       leave were processed, documented, and maintained in accordance with Job
       Corps requirements. Montgomery’s COP for student leave required center
       management to conduct student leave compliance reviews. However, we found
       no evidence to support that any compliance reviews were conducted.

DESI conducted a corporate assessment at Montgomery in July 2008 and determined
that leave documents were missing from the student folders and could not be located.
The corporate office recommended that the Montgomery Records Clerk ensure that all
required documents are included in student folders; and that center management
conducts random audits to stay in compliance. Center management responded that
staff will be required to submit leave forms to obtain approval from the Center Director
and Records Manager before being entered into the system (CIS). Any discrepancies
will be returned to the appropriate staff’s manager for corrections.

In response to our draft report, Job Corps concurred with the audit results on student
leave. However, DESI only concurred in part. DESI agreed with the leave exceptions
where the finding was a missing leave request form but did not agree that leave was not

                                                                   Performance Audit of DESI
                                            5                    Report No. 26-09-002-01-370
                                                 U. S. Department of Labor – Office of Inspector General


properly approved. DESI management stated that all leave tested was properly
approved in the CIS.

We continue to assert that all leave tested was not properly approved. Our testing
showed that 24 (44 percent) of the 55 leave day exceptions we reported were not
properly approved because the center did not obtain required written verification from a
third-party supporting that the reason for the leave provided by the student was valid.

AWOL Students or Their Parents Were Not Always Contacted

Montgomery could not provide adequate assurance that staff attempted to contact
AWOL students or their parents as required by Job Corps (PRH Chapter 6, Section 6.1,
R3, c & d, dated November 8, 2005. 2 Staff attempts to contact AWOL students or their
parents are a critical part of ensuring the students are safe and accounted for, and
AWOL days and separations are minimized. When students over 18 years of age are
AWOL, staff must attempt to locate and contact the students within 24 hours of
determining the students were AWOL. When students are minors, the staff must
attempt to contact the students’ parents within 18 hours. The PRH requires contact
attempts to be documented in the students’ personnel files.

Montgomery staff either did not make attempts to contact students or their parents, or if
they did make attempts, the attempts were not consistently documented. We reviewed
the personnel files for the 102 students (22 minors) who had separated from
Montgomery during PY 2007 because they exceeded the maximum days of AWOL
allowed by Job Corps (6 consecutive days or 12 days within a 180 day period). None of
the student files contained the required documentation supporting AWOL contact
attempts. Center management told us that AWOL contact attempts were made and
documented as student case notes in Job Corps’ Center Information System (CIS),
rather than in the student files as required by Job Corps. We reviewed the CIS case
notes for the 22 minor students that were AWOL separated during PY 2007. Table 2
shows that Montgomery did not document attempts to contact the students or their
parents within 18 hours for 64 (73 percent) of the 88 total times the students went
AWOL during PY 2007.

                                             Table 2
                       Minor Students or Their Parents Were Not Contacted

                                                                                 Percent of Total
Student/Parent Contact Activity                        AWOL Events
                                                                                 Non-Compliant
Contact Attempt Within 18 Hours                                24                      0%
Contact Attempt After 18 Hours                                 14                  16% (14/88)
No Record of Contact Attempt                                   50                  57% (50/88)
Total AWOL Events                                              88                  73% (64/88)



2
    Subsequent changes to PRH Chapter 6 did not impact this requirement.

                                                                               Performance Audit of DESI
                                                          6                  Report No. 26-09-002-01-370
                                     U. S. Department of Labor – Office of Inspector General



Montgomery’s non-compliance in this area occurred because of weaknesses in center
and corporate controls as follows:

   •   The COP required staff to document AWOL student retrieval efforts in the
       students’ CIS case notes, rather than the students’ personnel files as required by
       Job Corps. Job Corps requires the documentation to be maintained in the
       students’ files to facilitate center, corporate, and Job Corps compliance review.

   •   Center and corporate management did not provide sufficient supervision to
       ensure center staff attempted to contact AWOL students or their parents and
       documented their efforts. DESI corporate management told us that they required
       center management to conduct AWOL contact compliance reviews. However, we
       found no evidence to support that these compliance reviews were conducted.

Subsequent to our Montgomery fieldwork, center management told us that they
provided training to center staff and began requiring student and parent contact
attempts to be documented in the students’ personnel files as required by Job Corps.
DESI needs to verify these student files contain the required documentation during
center management and corporate on-site reviews.

In response to our draft report, Job Corps and DESI concurred with the audit results in
this area.

Work-Based Learning

Montgomery did not accurately report student participation in the center’s off-site WBL
program and did not provide adequate assurance that the participating students were in
attendance at their work sites or received the intended WBL program benefits. Job
Corps requires students participating in off-site WBL and away from the center
overnight to be accounted for in the CIS as “Present for Duty Off Center” (PRH Chapter
6, Exhibit 6-1, dated October 24, 2007). Additionally, centers are required to obtain a
written agreement with employers detailing the student-specific provisions required for
successful completion and a schedule for evaluations providing feedback about the
student’s performance. Centers are also required to obtain weekly timesheets from
employers to ensure students were in attendance at their work sites (PRH Chapter 3,
Section 3.8, R.3, b, dated December 21, 2007).

Montgomery provided us with a list of the 218 students that participated in off-site WBL
during PY 2007. We judgmentally selected 12 of the 218 students and determined that
DESI did not ensure compliance with the Job Corps requirements for WBL. The
exceptions identified for the 12 student files reviewed are summarized as follows:

   •   2 (17 percent) of the 12 students were participating in off-site WBL at employer
       locations close to their homes (Home-Based) and stayed at their homes while in
       the WBL program. The two students were incorrectly reported in Job Corps’s CIS

                                                                   Performance Audit of DESI
                                            7                    Report No. 26-09-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


       as being ‘Present for Duty on Center,” rather than “Present for Duty Off Center”
       as required by Job Corps. This understated the number of center students
       participating in Home-Based WBL and incorrectly reported the students’ physical
       location.

   •   None of the 12 students had a written agreement with their employer detailing
       the student-specific provisions required for successful completion. The
       agreement would have included provisions such as the employer’s agreement for
       (1) providing direct supervision and workplace mentors to the student;
       (2) assisting the student in achieving agreed upon career technical and academic
       skills; (3) documenting the student’s achievements and competencies, and
       (4) providing a safe environment.

   •   6 (50 percent) of the 12 students did not have weekly timesheets or evaluations
       completed by their employers. The timesheets provide assurance that
       participating students were in attendance at their work sites. The evaluations
       provide performance feedback to the center and students, and document that the
       students received the intended benefits of the WBL program.

Montgomery had COP that were consistent with Job Corps’ WBL requirements.
However, the noted exceptions occurred because DESI did not provide adequate
oversight to ensure center staff followed the procedures. Center management reviews
of the center’s compliance were not conducted and the corporate office did not
effectively assess the WBL program during its July 2008 Corporate Assessment
conducted at Montgomery. The corporate office did not identify any program
weaknesses based on a review at two off-center employer sites and concluded that the
WBL program was very effective.

In response to our draft report, Job Corps and DESI concurred with the audit results in
this area.

Objective 2 – Did DESI ensure compliance with Job Corps requirements for
              managing and reporting financial activity?

Finding 2 –    DESI did not ensure compliance with Job Corps requirements for
               verifying timesheets and use of government vehicles.

DESI did not verify timesheets were reliable. Timesheets submitted by center staff had
supervisor signature dates prior to staff signature dates or were not dated by
employees. Furthermore, the controls established to ensure appropriate vehicle use
were not effective. Required trip request and approval forms, trip reports, and daily
vehicle inspection sheets were not completed.

These conditions occurred because DESI’s controls over timesheets and the use of
government vehicles need improvement. We attributed weaknesses to center staff not
following established procedures and a lack of center and corporate oversight.

                                                                   Performance Audit of DESI
                                            8                    Report No. 26-09-002-01-370
                                           U. S. Department of Labor – Office of Inspector General



Timesheet Verifications Were Not Effective

Montgomery did not consistently verify timesheets were reliable. Job Corps requires
center operators to establish controls to provide reasonable assurance that the integrity
of the funds provided by the government has not been compromised (PRH Chapter 5,
Section 5.7, P1, dated March 30, 2006). For timesheets, DESI accomplished this by
establishing COP requiring employees to submit signed and dated timesheets to their
supervisor for approval the morning following the last day of the pay period. In addition,
the COP restrict timesheets from being accepted early by the supervisor unless the
employee will not be working any more hours in the pay period (Montgomery COP:FIN-
1033). DESI centers submit employee timesheets to the corporate office for final review
and data entry into a third-party payroll system.

We reviewed the timesheets submitted by staff for three separate two-week pay periods
during Montgomery’s contract year beginning March 1, 2007, and ending September
30, 2008, (includes a 7-month extension) to determine whether the amounts paid to
employees were supported as required by Job Corps and DESI. Of the 374 timesheets
reviewed, 18 (5 percent) had either supervisor signature dates prior to staff signature
dates (16 occurrences) or were not dated by employees (2 occurrences). For these
timesheets, Montgomery did not adequately ensure that the work hours inputted by staff
and reported by the center were appropriate. The exceptions identified were not limited
to a specific pay period tested or a particular supervisor, indicating a control weakness.
Table 3 shows the pay period in which the exceptions occurred and the number of
different supervisors involved.

                                           Table 3
                                     Timesheet Exceptions

                                                                       Number of
Pay Period                    Number of Exceptions               Different Supervisors
March 9-22, 2008                        3                                   2
June 1-14, 2008                         5                                   3
September 7-20, 2008                  10                                    5
Totals                                18                                    7*
* Supervisors with exceptions in multiple pay periods were counted only once. One supervisor was
  responsible for 8 of the 18 exceptions.

These timesheet exceptions occurred because center management and staff did not
consistently comply with DESI’s established timesheet procedures. Either the
employees signed after the supervisors, or the employees and supervisors’ signature
dates were not reliable. DESI management told us that the exceptions occurred
because center staff misinterpreted the Job Corp requirements and the
misinterpretation was not caught by center management or during the corporate office
timesheet review prior to data entry into the third-party payroll system.



                                                                            Performance Audit of DESI
                                                   9                      Report No. 26-09-002-01-370
                                      U. S. Department of Labor – Office of Inspector General


In response to our draft report, Job Corps concurred with the audit results in this area.
However, DESI only concurred in part. DESI agreed with our specific exceptions for
timesheet verifications, but disagreed with our conclusion that Montgomery did not
adequately ensure that the work hours inputted by staff and reported by the center were
appropriate. DESI stated that there was adequate assurance that the time reported was
appropriate because the supervisor signed before the employee for only 169 hours, or
0.56 percent of the 29,920 hours worked during the 3 pay periods tested.

We disagree and believe this analysis downplays the risk associated with DESI
supervisors and staff not following DESI’s own timesheet procedures. DESI’s
calculation only included the hours between when the supervisor signed and the
employee signed, generally a small portion of each non-compliant timesheet. We
questioned the reliability of the entire timesheets and the effectiveness of the controls
based on the non-compliance and inadequate supervisory reviews.

Controls Over The Use Of Government Vehicles Were Not Effective

DESI did not provide adequate assurance that the 16 government vehicles assigned to
Montgomery by the General Services Administration (GSA) were used appropriately. To
comply with Job Corps’ financial control requirements, DESI established COP requiring
staff to complete (1) trip requests approved by their immediate supervisors; (2) trip
reports summarizing trip information such as miles traveled, fuel consumption, and
vehicle condition; and (3) daily vehicle inspection sheets detailing driver and vehicle
information obtained by Security as each vehicle left and returned to the center.

We reviewed the 403 vehicle trips taken by Montgomery staff in March 2008 and found
that the controls established to ensure appropriate vehicle use were not effective. Our
specific exceptions are as follows:

   •   388 (96 percent) of the 403 trips were not supported by a properly completed trip
       request. Of the 388 exceptions, trip requests were missing for 382 trips and
       supervisory approval signatures were not obtained on the trip requests for 6 trips.

   •   All (100 percent) of the 403 trips were not supported by a properly completed trip
       report. Of the 403 exceptions, trip reports were missing for 398 trips and required
       information such as the vehicle driven, vehicle condition, and fuel levels were not
       provided for 5 trips.

   •   247 (61 percent) of the 403 trips were not supported by a properly completed
       daily vehicle inspection sheet. Required information such vehicle drivers, center
       sign-out and return times, and odometer readings were not recorded by Security
       for the 247 exceptions.

Without enforcing established COP for the use of government vehicles, there was not
reasonable assurance that the vehicles were used by authorized personnel for
approved Job Corps purposes. This condition occurred because Montgomery staff did

                                                                    Performance Audit of DESI
                                            10                    Report No. 26-09-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


not follow DESI’s established COP regarding the use of government vehicles. The COP
also required center management to ensure compliance and maintain the required
records and this oversight was not provided. Furthermore, DESI’s July 2008 Corporate
Assessment at Montgomery was not effective in this area. The corporate office did
identify the lack of supervisory approvals for the use of government vehicles and
recommended corrective action. However, Montgomery management did not address
the finding nor specify planned corrective action in their written response to the
Corporate Assessment. The Corporate Assessment also did not identify the lack of trip
reports and daily inspection sheets.

In response to our draft report, Job Corps and DESI concurred with the audit results in
this area.

Objective 3 – Did DESI ensure compliance with Job Corps requirements for
              managing center safety programs?

Nothing came to our attention to indicate that DESI did not effectively ensure
compliance with Job Corps requirements for managing center safety programs.

Our methodology for evaluating DESI’s corporate and center controls over center safety
programs is summarized in Appendix B.

Objective 4 – Were the hotline complaints alleging improper practices relating to
              DESI’s construction contractor procurement, accounting, high
              school diploma attainment, personnel hiring and termination,
              clothing distribution, and travel reimbursement valid?

The allegations contained in the hotline complaints did not have merit.
The OIG received two hotline complaints alleging improper practices by DESI
management and staff. The specific allegations were as follows.

   •   DESI management circumvented Federal Acquisition Regulations (FAR)
       requirements by awarding construction contracts for its Gulfport Job Corps
       Center to family members. The Gulfport Job Corps Center, located in Gulfport,
       Mississippi, was closed and under reconstruction due to damage caused by
       hurricane Katrina.

   •   DESI maintained two sets of accounting records that did not reconcile.

   •   DESI’s online high school diploma program service providers did not have proper
       certification; and Academic staff at Montgomery improperly assisted students
       during high school diploma examinations.

   •   DESI centers did not provide students with clothing as required by Job Corps.



                                                                   Performance Audit of DESI
                                           11                    Report No. 26-09-002-01-370
                                    U. S. Department of Labor – Office of Inspector General


   •   Montgomery management improperly terminated the complainant and hired two
       staff based on nepotism.

   •   Montgomery staff claimed improper travel reimbursements and overstated travel
       expense to Job Corps.

During our audit, we found no evidence that DESI engaged in the six alleged improper
practices. Our methodology for validating the merit of the complaint allegations is
summarized in Appendix B.

Recommendations

We recommend that the National Director, Office of Job Corps, require DESI to increase
its emphasis on compliance with Job Corps requirements by implementing the program
management responsibilities specified in the Job Corps PRH and DESI COP.
Specifically, we recommend that the National Director require DESI to:

   1. Develop and implement Center Operating Procedures for leave and AWOL
      student and parent contact attempts that are consistent with the PRH.

   2. Provide continued training and supervisory oversight to responsible staff for
      complying with Job Corps documentation and reporting requirements for student
      leave, contacting AWOL students or their parents, WBL, timesheet verification,
      and the use of government vehicles.

   3. Conduct assessments at each center to effectively identify non-compliance with
      Job Corps documentation and reporting requirements for student leave,
      contacting AWOL students or their parents, WBL, timesheet verification, and the
      use of government vehicles.

   4. Implement corrective actions plans when non-compliance with Job Corps
      requirements is identified and follow up previous recommendations during
      corporate center assessments.




Elliot P. Lewis




                                                                  Performance Audit of DESI
                                          12                    Report No. 26-09-002-01-370
             U. S. Department of Labor – Office of Inspector General




Appendices




                                           Performance Audit of DESI
                   13                    Report No. 26-09-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                       Performance Audit of DESI
               14                    Report No. 26-09-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Background

Job Corps is authorized by Title I-C of the Workforce Investment Act (WIA) of 1998 and
is administered by the Department of Labor, Office of the Secretary, Office of Job
Corps, under the leadership of the National Director, supported by a National Office
staff and a field network of Regional Offices of Job Corps.

The purpose of Job Corps is to assist people ages 16 through 24 who need and can
benefit from a comprehensive program, operated primarily in the residential setting of a
Job Corps center, to become more responsible, employable, and productive citizens.

As a national, primarily residential training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education. Education,
training, and support services are provided to students at Job Corps center campuses
located throughout the United States and Puerto Rico. Job Corps centers are operated
for the U.S. Department of Labor by private companies through competitive contracting
processes, and by other Federal Agencies through inter-agency agreements.

The WIA legislation authorizing Job Corps requires the Secretary of Labor to provide a
level of review of contractors and service providers over a three year period. The Code
of Federal Regulations (CFR) states all Job Corps centers are to be reviewed over the
three-year period. The OIG has taken the lead in providing this audit coverage for the
Secretary and meeting the intent of the CFR.

Montgomery is 1 of the 3 centers currently operated by DESI under contract with the
Office of Job Corps. The Gulfport Job Corps Center was closed due to Hurricane
Katrina. Montgomery has an authorized On–Board Strength of 322 students.

OASAM is responsible for the overall implementation of the Department of Labor’s
procurement program. OASAM provides contracting support to Job Corps and
coordinates with Job Corps to ensure contractors comply with the provisions of the
contracts.




                                                                   Performance Audit of DESI
                                           15                    Report No. 26-09-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                       Performance Audit of DESI
               16                    Report No. 26-09-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The audit objectives were to answer the following questions:

   1. Did DESI ensure compliance with Job Corps requirements for reporting
      performance?

   2. Did DESI ensure compliance with Job Corps requirements for managing and
      reporting financial activity?

   3. Did DESI ensure compliance with Job Corps requirements for managing center
      safety programs?

In addition, in response to two hotline complaints received during the audit, we added
an objective to determine the validity of allegations:

   4. Were the hotline complaints alleging improper practices relating to DESI’s
      construction contractor procurement, accounting, high school diploma
      attainment, personnel hiring and termination, clothing distribution, and travel
      reimbursement valid?

Scope

This report is a summary of our audit work conducted at DESI headquarters in Phoenix,
Arizona and Montgomery Job Corps Center in Montgomery, Alabama. For financial
reporting, our audit covered Contract Year 2007, March 1, 2007, to September 30,
2008. For performance, student health, and safety, our audit covered Program Year
2007 (July 1, 2007, to June 30, 2008).

We conducted this performance audit in accordance with government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a sufficient basis for our findings and conclusions based on our audit
objectives.

Methodology

To accomplish our audit objectives, we obtained an understanding of applicable laws,
regulations and Job Corps policies and procedures. In performing the audit, we also
reviewed and assessed internal controls used by DESI and Montgomery for managing
center safety and reporting financial and performance information to Job Corps. Finally,
we reviewed Center Operating Procedures (COP) at Montgomery, and interviewed


                                                                   Performance Audit of DESI
                                            17                   Report No. 26-09-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


DESI Job Corps headquarters management as well as the various staff who were
responsible for monitoring the Center we visited.

In order to meet our audit objectives, we assessed DESI’s internal controls in five
areas – (1) the control environment, (2) risk assessment, (3) control activities, (4)
information and communication, and (5) monitoring. We evaluated the internal controls
pertaining to whether the DESI exercised sufficient oversight to ensure the compliance
with Job Corps requirements for reporting performance, and managing center safety
programs. We evaluated the internal controls pertaining to our objective only. Our
consideration of internal controls would not necessarily disclose all matters that might
be reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.

We conducted limited data reliability tests over computer-processed financial and
performance data requested from Job Corps and DESI. We performed limited testing of
the data obtained. We concluded all data provided for this audit is considered to be
sufficiently reliable and meets the criteria for data reliability for this audit.

Performance Reporting    In order to determine if Job Corps’ performance reporting
complied with PRH requirements, we reviewed Montgomery’s required supporting
documentation for GED/High School Diploma Attainment, Career Technical Completion,
and student attendance and accountability described as follows:

       GED/High School Diploma Attainment and Career Technical Completion – we
reviewed the PY 2007 OMS-20 reports that show student accomplishments at
Montgomery. We identified a total of 161 GED/High School Diploma Attainment credits
and 182 career technical completion credits claimed by Montgomery. We statistically
selected 62 of the 161 GED/High School Diploma Attainment credits claimed for
students and reviewed the certificates and diplomas maintained in the students’
personnel files. In addition, we statistically selected 65 of the 182 career technical
completion credits claimed on Montgomery’s OMS-20 to determine whether each
student had a Training Achievement Record (TAR) meeting Job Corps requirements.

        Student Accountability – we interviewed DESI personnel to gain an
understanding of their policies and procedures for monitoring the center operations and
ensuring program accountability, accuracy, and integrity as required by PRH Chapter 5,
R.2. We further evaluated Montgomery's COP to determine whether they were
developed and implemented effectively to account for students. We examined the sign
in/out register logs used to record students’ entry and exit from Montgomery, and COP
governing daily bed checks and students’ sign-in rosters. Class attendance data were
examined by judgmentally selecting the 7-day period (January 3, 2008, to January 9,
2008) after the winter break, when it was the time period students most likely would
have AWOL activities. We then compared each bed check, sign-in/out logs, and class
attendance reports to Montgomery’s Morning Report to determine whether the student
accountability at Montgomery was reported correctly. In effect, this test compared the



                                                                   Performance Audit of DESI
                                           18                    Report No. 26-09-002-01-370
                                      U. S. Department of Labor – Office of Inspector General


internal controls supporting each student's status at Montgomery to the student's status
reported to Job Corps.

        Student AWOL – we identified there were 102 students who had 6 consecutive
AWOL days and/or 12 accumulated AWOL days in PY2007. We selected all 102
students to determine whether they exceeded the PRH established AWOL limits. For
this test, we identified whether students exceeded either the PRH AWOL 6 consecutive
training day rule, or had violated the PRH AWOL 12-day rule (within a 180 consecutive
day period). Furthermore, we identified the date each student should have been
separated if the PRH AWOL rule had been enforced, and determined the number of
days Montgomery retained each student after their mandatory separation date. Lastly,
we analyzed the 102 student records to verify whether Montgomery staff documented
their contacts/follow ups of AWOL students.

       Student Leave – we identified the total universe of 298 students with 1,930
reported leave days in PY2007 at Montgomery. We statistically selected 20 students
with 206 leave days taken to determine whether each of the 206 leave days were
reasonable, supportable, or allowable per criteria and limitation rules prescribed in the
PRH Chapter 6, Exhibit 6-1.

Financial Management and Reporting In order to determine if DESI was in
compliance with PRH requirement for Financial Management and Reporting, we
reviewed Montgomery’s contract year 2007 Net Center Operations Expenses reported
on Form 2110 page 2, to the expenses shown in the General Ledger account balances
for Montgomery. The general ledger transactions are maintained at DESI headquarters.
In addition to examining overall reported expenses, we also reviewed all line entries on
the Form 2110 by tracing them to the corresponding general ledger accounting codes.

In order to determine whether payroll expenses were supported with proper
documentation, we reviewed the timesheets submitted by staff for three separate two-
week pay periods during Montgomery’s contract year beginning March 1, 2007, and
ending September 30, 2008. For the same period, we also reviewed payroll registers
and the personnel files for 28 judgmentally selected staff at Montgomery to determine if
employees were paid at their authorized rates. Finally, we verified the existence of the
28 selected staff by reviewing their government-issued identifications.

Center Safety Program      In order to determine if Montgomery complied with PRH
safety program requirements, we reviewed the center’s student drug testing and safety
and health programs as follows:

        Drug Testing Program – we statistically selected the files for 20 of the 607
students enrolled at Montgomery during PY 2007 to determine whether each was drug
tested in accordance with the PRH, and whether students that tested positive were
tested again after 45 days.




                                                                    Performance Audit of DESI
                                            19                    Report No. 26-09-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


         Safety and Health Programs – we interviewed Montgomery staff and reviewed
facility maintenance reports to understand the process implemented by Montgomery.
Specifically, we reviewed all of Montgomery’s’ Environmental Health Inspections, the
annual safety and health reviews performed by a DOL contractor, the quarterly reports
conducted by the State, and weekly and monthly inspections conducted by Montgomery
to determine whether these required inspections were conducted, and whether
Montgomery management acted expeditiously to address unsafe or unhealthy
conditions.

      Oversight Activities at DESI Headquarter – we reviewed monitoring reports
prepared by the DESI Headquarters in PY 2007 to determine if monitoring visits were
adequate to ensure compliance with PRH requirements. We also interviewed DESI
headquarters management as well as the various program managers who were
assigned to monitor the center we visited.

We did not obtain any projection for the tests performed during our audit. Test results
either showed no exceptions or were immaterial. However, for student AWOL and
AWOL retrieval effort, we tested 100% of 102 students who exceeded either the PRH
AWOL 6 consecutive training day rule, or had violated the PRH AWOL 12-day rule.
Consequently, no projection was needed.

Hotline Complaints We received two hotline complaints alleging improper practices
relating to DESI’s construction contractor procurement, accounting, high school diploma
attainment, personnel hiring and termination, clothing distribution, and travel
reimbursement. In evaluating the complaints, we reviewed the complaints and
discussed the possible fraud or other irregularities among our audit team. We only
focused on our reviews to determine whether allegations were valid rather than if the
results could be projected to the intended population. Based on our review and
discussion, we performed the following:

       Construction Contractor Procurement – we conducted interviews with
Montgomery officials to gain an understanding of the procurement practices regarding
construction projects. We reviewed Montgomery’s COP regarding its procurement
process for consistency with the FAR. We selected a judgmental sample of construction
procurements to determine if the procurements were properly conducted in accordance
with the FAR.

       Improper Accounting Practices – we interviewed DESI management to gain an
understanding of the accounting system used by DESI Headquarters and the
accounting system used by Montgomery. We reviewed the reconciliation process
between these two accounting systems and confirmed that the financial information
maintained by the two systems supported expense reports (Form 2110) submitted to
Job Corps. In order to determine whether center expenses were supported with proper
documentation, properly processed (to include compliance with the FAR), and
appropriately authorized for payment, we judgmentally sampled 33 payments including



                                                                   Performance Audit of DESI
                                           20                    Report No. 26-09-002-01-370
                                      U. S. Department of Labor – Office of Inspector General


travel, fuel, student clothing, and vehicle expenses where allegations were raised in the
hotline complaints against DESI and Montgomery.

         High School Diploma Program – we conducted interviews with Montgomery
officials and students; toured the High School Diploma (HSD) Program examination
room; and reviewed safeguards for conducting the HSD exam outlined in the PRH.

         Personnel Hiring and Termination – we conducted interviews with Montgomery
officials to gain an understanding of the center’s hiring and termination practices. We
reviewed the hiring and termination requirements stated in the PRH and the personnel
files of the employees mentioned in the complaint for compliance with the PRH.

       Clothing Distribution – we conducted interviews with Montgomery officials to gain
an understanding of the student clothing distribution process. We reviewed
Montgomery’s COP and PRH requirements and observed Montgomery’s practice
regarding the student clothing distribution. We tested clothing receipts and inventory
documentation for the month of March 2008 to determine if students received clothing in
accordance with the PRH.

       GSA Vehicle – we reviewed Montgomery’s COP regarding the use of
government vehicles to determine if Montgomery’s COP were adequate to provide
controls over its GSA vehicles on center as required by the PRH. We then interviewed
Montgomery’s Motor Pool Supervisor and Montgomery’s Security Supervisor to gain an
understanding of how Montgomery’s controls had been implemented. Finally, we tested
these controls by reviewing required trip requests, trip reports, and daily vehicle
inspection sheets for the month of March 2008.

        Travel Reimbursement – we conducted interviews with DESI officials to gain an
understanding of the travel reimbursement process. Furthermore, we reviewed
Montgomery’s COP regarding the travel reimbursement and judgmentally selected
travel vouchers for the testing to determine if travel reimbursements were properly
reported.

Criteria

We used the following criteria to perform this audit:

   •   Federal Acquisition Regulations
   •   Job Corps Policy and Requirements Handbook
   •   Montgomery’s Center Operating Procedures
   •   Government Auditing Standards




                                                                    Performance Audit of DESI
                                            21                    Report No. 26-09-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                       Performance Audit of DESI
               22                    Report No. 26-09-002-01-370
                               U. S. Department of Labor – Office of Inspector General


                                                                        Appendix C
Acronyms and Abbreviations

AWOL                         Absent Without Leave

CIS                          Center Information System

COP                          Center Operating Procedures

DESI                         Dynamic Educational Systems, Incorporated

DOL                          Department of Labor

FAR                          Federal Acquisition Regulations

GAO                          Government Accountability Office

GED                          General Education Development

HSD                          High School Diploma

OIG                          Office of Inspector General

OMS                          Outreach Measurement System

PRH                          Policy and Requirements Handbook

PY                           Program Year

TAR                          Training Achievement Record

WIA                          Workforce Investment Act




                                                             Performance Audit of DESI
                                      23                   Report No. 26-09-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                       Performance Audit of DESI
               24                    Report No. 26-09-002-01-370
                     U. S. Department of Labor – Office of Inspector General


                                                              Appendix D
Job Corps Response




                                                   Performance Audit of DESI
                           25                    Report No. 26-09-002-01-370
U. S. Department of Labor – Office of Inspector General




                              Performance Audit of DESI
      26                    Report No. 26-09-002-01-370
U. S. Department of Labor – Office of Inspector General




                              Performance Audit of DESI
      27                    Report No. 26-09-002-01-370
U. S. Department of Labor – Office of Inspector General




                              Performance Audit of DESI
      28                    Report No. 26-09-002-01-370
U. S. Department of Labor – Office of Inspector General




                              Performance Audit of DESI
      29                    Report No. 26-09-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                       Performance Audit of DESI
               30                    Report No. 26-09-002-01-370
                U. S. Department of Labor – Office of Inspector General


                                                         Appendix E
DESI Response




                                              Performance Audit of DESI
                      31                    Report No. 26-09-002-01-370
U. S. Department of Labor – Office of Inspector General




                              Performance Audit of DESI
      32                    Report No. 26-09-002-01-370
U. S. Department of Labor – Office of Inspector General




                              Performance Audit of DESI
      33                    Report No. 26-09-002-01-370
U. S. Department of Labor – Office of Inspector General




                              Performance Audit of DESI
      34                    Report No. 26-09-002-01-370
                                    U. S. Department of Labor – Office of Inspector General


                                                                             Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Chih-Cheng “Steve”
Chiang, Norma Estrada, Goleda Sutton-Watson, Arijit Bandyopadhyay, and Catherine
Christian.




                                                                  Performance Audit of DESI
                                          35                    Report No. 26-09-002-01-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
